 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MEDICARE BENEFICIARY SATISFACTION

   WITH AND UNDERSTANDING OF

      HOME HEALTH SERVICES





                       SE RWCE$
                    p,t+
               J+                 ~iq
          *+
                                        JUNE  GIBBS BROWN
          $
          $                             Inspector  General
          s
          %
           %+--       ~
                                               NOVEMBER 1995
             %’dya
              >                                 0EI-04-93-O0143
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
car~ng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector
General.

Atlanta Region                                        Headquarters

Paula Bowker, Project Leader                          Jennifer Antico, Program Specialist

Ron Kalil, Team Leader

Peggy Daniel, Program Analyst

Betty Apt, Program Analyst


To obtain a copy of this report, call the Atlanta Regional Office at 404-331-4108.

I
     Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERA




    MEDICARE BENEFICIARY SATISFACTION

       WITH AND UNDERSTANDING OF

          HOME HEALTH SERVICES





                                  SERVJC[$
                            #J
                      ~-+                    %’,
                    -3

               ~v
                                                   JUNE  GIBBS BROWN
               2.
                                 Inspector  General

                s

                 ‘3

                   %’
                    ++
                                 -g
                                                          NOVEMBER 1995
                     %d~~
                      >                                    OEI-04-93-O0143
                        TABLE                     OF CONTENTS


                                                                                                                      PAGE


INTRODUCTION .             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


SURVEY RESULT’S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2


    �   Most Beneficiaries Are Satisfied With Home Health Care                                . . . . . . . . . . . . . . . . 2


    �   About Half Don’t Understand               What Medicare Paid For . . . . . . . . . . . . . . . . . . 2


RECOMMENDATIONS                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


APPENDICES            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


A       Methodology       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Survey Questions And Responses                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C       Agency Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1

                        INTRODUCTION


PURPOSE


To determine Medicare beneficiary satisfaction with and understanding   of home health

services they received.


BACKGROUND


The Office of Inspector General entered into a partnership with the Health Care

Financing Administration (HCFA) in 1994 to examine home health services paid for

by Medicare. Inpart, weagreed topefiorm asumeyof Medicare beneficiaries to

determine their satisfaction with and understanding of home health services.

Beneficiary satisfaction has been one of the concerns faced by the HCFA Task Force

on Home Health in its efforts to revise home health services. As part of a recurring

nationwide Medicare beneficia~ satisfaction survey, we included questions, in 1994,

about satisfaction with and understanding of home health services.


We mailed a survey questionnaire to over 1200 randomly selected Medicare

beneficiaries for whom Part B claims had been filed in calendar year 1993. Of the

1002 beneficiaries who returned a completed questionnaire, 200 said they had received

home health services. This report is based on questions and answers about home

health services from the 200 respondents. Details of the methodology are contained in

Appendix A.


We conducted this inspection in accordance with Quality Standards for Inspections

issued by the President’s Council on Integrity and Efficiency.





                                           1

                          SURVEY                     RESULTS


Most M&are        Benejiciati Are Sati#ied WtihHome Health Care

b	        91 percent of beneficiaries said home health agency personnel did an adequate
          job.

b	         86 percent of the beneficiaries said they received the number of home health
           visits they thought they needed.

b	         76 percent of the beneficiaries reported that a physician or home health agency
           employee had explained how their medical condition should improve as a result
           of care received from a home health agency. Most of them believed their
           condition improved accordingly.

HoweverAbout Ha~ Of l%em Do Not UntkmtandW4at Medicare Paid For

k	         As illustrated below, only 53 percent of beneficiaries thought it was clear what
           Medicare paid for. Given the confidence interval of our estimate, there is
           virtually no difference between the number of beneficiaries who understood
           what Medicare paid for and those who didn’t.

          BENEFICIARY     UNDERSTANDING              OF WHAT MEDICARE       PAID FOR




                         DON’T   KN   Ow




                                       CLEAR   53%




     b	    Beneficiaries in our survey had a better understanding of what hospital services
           were covered under Medicare than they did for what home health services were


                                                     2
      covered. Sixty-two percent understood what hospital services Medicare
      covered, as compared to the 53 percent who understood what home health
      services were covered by Medicare. Home health beneficiaries do not receive
      an Explanation of Medicare Benefits, as do hospital beneficiaries.

The survey instrument and responses are shown in Appendix B.




                                         3

                   RECOMMENDATIONS


We strongly support HCFA’S ongoing activities to improve beneficiary understanding
of the home health benefit. To this end, HCFA should consider ways to improve
upon existing opportunities to explain the home health benefit to beneficiaries. This
might include the following:

�	     Developing a plan to increase understanding of the home health benefit by
       physicians and discharge planners, and encouraging them to explain the benefit
       to patients receiving home health services, and

b	     Stressing the requirement that HHAs explain the benefit as well as the patient’s
       rights to beneficiaries when they start home health services.

In addition to existing opportunities, HCFA should pursue new methods to increase
beneficiary understanding of what home health services Medicare pays for. This might
include the following:

b	     Providing an Explanation of Medicare Benefits to home health beneficiaries,
       and

b	     Issuing a description of the home health benefit directly to Medicare
       beneficiaries.

HCFA is currently testing (1) an Explanation of Medicare Benefits for home health
services, and (2) a pamphlet on the home health benefit that they plan to distribute to
home health beneficiaries.

AGENCY COMMENTS

We received comments on the report from HCFA. The HCFA concurred with our
recommendations and provided more detail on their activities in this area. The full
text of HCFA’S comments is in Appendix C.




                                            4

                            APPENDIX                  A


                                 METHODOLOGY

In July 1994, wemailed asurvey questionnaire to 1279 randomly selected Medicare
beneficiaries for whom Part B claims had been filed in calendar year 1993. Based on
previous experience with similar beneficiary surveys, we calculated our sample size to
produce an estimate within 3.5 percent of the true value at the 95 percent confidence
level. Weusedstandard    equations forestimating sample size with a binary response
variable.

Beneficiary participation inoursurvey was voluntary. A total of 1002 beneficiaries
returned completed questionnaires, for a response rate of 78 percent for the entire
survey. Of those 1002 respondents, 200 had received home health services (20
percent) and responded to our questions pertaining to home health services. This
response rate produced an estimate within ~ 7 percent of the true value at the 95
percent confidence level.




                                         A-1

                             APPENDIX                 B


                     SURVEY QUESTIONS MID RESPONSES

Following are the questions regarding home health services that were included in the
broader Medicare beneficial sat&faction survey. l%e numbers preceding each answer
indicate how many respondents selected that answer.


1.	    Thinking about the most recent time you received services in vour home from a
       home health a~encv, was it clear to you what Medicare paid for?

       (Check one answer.)

                     I have not received services from a home health agency since I
                     have had Medicare. (Skip to page 21)

                     Yes, it was clear what Medicare paid for.

                     No, it was NOT clear what Medicare paid for.

                     I do not remember if it was clear what Medicare paid for.

                     Medicare has not yet paid for the home health services.

                     I don’t know what Medicare paid for.


2.     Thinking back to when you received home care from a home health agency,

       a.	    Did the caregiver(s) stay long enough to do his or her job?

              ~      YES

              ~      NO

       b.	    Did the caregiver(s) do his or her job adequately?

              ~      YEs

              ~      NO




                                          B-1

3.	   How would you characterize the number of visits nurses and nurse aides from
      the home health agency made to your home?

            ~       I received the number of visits I needed.

            _NJ     I received less visits than I needed.

            —7      I received more visits than I needed.


4.	   Did your physician or home health agency explain how your medical condition
      should improve as a result of the care you received from the home health
      agency?




5.	   Did your condition improve as much as you were led to believe you would
      improve?

             y-J)   YEs



             J&     No one explained how much I should improve.


 6.    How did you select the home health agency you used?

             ~	      A doctor, hospital or other medical person or facility referred me
                     to the home health agency.

             ~       Friends or family referred me to the home health agency.

             Jl_     The home health agency contacted me first.

                ~    I don’t recall.




                                           B-2

APPENDIX          C




 AGENCY COMh4E~




         c-1
:. ..
         .<,,.,,,, ,,,
        +L


:
:.
 ?Jf ________
   ..
     ,+
        _____
       /%,”
        >
                           l-)EPA1lThl EN”r C)F IIEALI”II
                            -—
                                                            I%. ll[JMAN   SERV[CES
                                                                                                 Healttl   Care Financirlg


                                                                                                                —---
                                                                                                                                  Administr


                                                                                                                           -- . ... ______    -.
                                                                                                 1 tl? Adr]](llis~rator
                                                                                                 Wijstlingtor],     D.C.      20201




                    DATE:             OCT -6 IW
                    T():             June Gibbs }Irown
                                     Inspectc]r CrlleraI
                                                                : ‘>
                   FROM:            Bruce C. Vladeck c~
                                    Administrator                                         ——-—

                  SUBJECT:          O~Ce of Inspector GcneraI Draft Report: “Meticae Deneficiq
                                    Satisfaction With and UnderstaI]di[lg of IIome Health Services,”
                                    (OEI-04-93-00143)

                 we reviewed the above-referenced repoti on Medicare beneficiq satisfaction with home
                 health services. Attached are our comments on the report recommei]dations.

                Thank YOU for the opportu[]ity to review and commc])t on this draft report.

                Attachment
             Comments    of the Health Care F@ncinq Administration    (HCFA)
                          on OffIce of Inspector General (OIG)
                  Draft Report, “Medicare Beneficiary
                                               —.     Satisfaction with
                      and Understanding of Home Health Services,:
                                   QEI-04-93-00143j


OIG Recommendations

   o	 IICFA should consider ways to improve upon existing oppoi tunities to explain the
      home health benefit to beneficiaries.

   0	 HCFA should pursue new methods to increase beneficiary understanding of what
      home health services Medic,are pays for.

HCFA Response

We concur and are pleased that (JIG llas acknowledged our ongoing activities to improve
beneficiary understanding of the home health benefit.

Tle benefit of providing ranExplanation of Medicare Benefits (notice of utilization) to
beneficiaries is being pilot tested in Flofida and Alabama. Similar infot-matio~ in survey
form, is being sent to ordering physicians in Georgia and Mississippi. A final report
including our plan of action will be available in Decemhcr 1995.

 A pamphlet explaining the Medicare home hea,ith betlefit was developed through
HCFA’S home health initiative, It was reviewed by several beneficiary advocacy groups
and provider organizations, i.ncuding the ]lome }Iealth associations. It was alSO tested
with stnall groups of Medicare beneficiaries in three states. The pamphlet will be ready
for distribution in November 1995. We will publicize the existence of the home health
pamphlet through the Medicare hotline and other sources, such as the Senior Advocacy
News Service.

The pamphlet will be distributed to groups aMdorganizations that provide counseling and
assistance services to beneficiaries SIIChas the [formation Counseling and Assistance
(lCA) state grantees, the Retired Seniors volunteer Program, state and area Agencies On
Aging, and others. It wil] also be distributed to hospitals to be shared with the std%
(hospital discharge planners anti social workers) who assist beneficiaries with their
posthospital health care needs. Hnrd and canlera-re~dy copies of fhe pamphlet will be
sent to a variety of provider organizations.
Page 2

We hope to produce a short video describing Medicare’s home health benefit. The video
will be distributed to hospitals, senior centels, and ICA grantees. We expect to release
the video in early 1996.

We recently published a final rule to strengthen our hospital discharge planning
requirements. In that rule, we require hospitals to provide a discharge planning
evaluation to patients and to discuss the results of the evaluation with the patient or
individual acting on his or l~erbehalf We filso plan to propose a general revision of the
hospital conditions and, in this context, t~lli consider any comments we receive on how
hospitals could be encouraged to voluntarily ed~]cate their physicians, discharge planners,
and Medicare patients ou the home health benefit. However, a major goal of the planned
revision is to reduce the number and scope of prescri ptive, process-oriented requirements
that hospitals must meet, and any changes in the conditions would have to be evaluated
relative to this objective.

Currently, home health agencies’ (IIHAs} responsibilities in this area are more specific.
~ the current patient’s rights condition of p[uticipation at section 42 CFR 484. 10(e),
HHAs are required to inform patients, orally and in wl-iting, of the following: (1) the
extent to which payment may lX expected from Medicare, Medicaid, or any other
Federally-fi.mded or aided program known to dle 13}IA;(2) the charges for services that
will not be covered by ?vfedica.re;and (3) the charges that the individual may have to pay.
In addition, the HHA must inform patien~s {}faIIy changes in the inf nnation, orally and
in writing, as soon as possible, but IIOlater tha,n 30 calendar days from the date the HHA
becomes aware of the change.
